3tate of Beto gork
Court of appeals
BEFORE: LESLIE E. STEIN, Associate Judge

THE PEOPLE OF THE STATE OF NEW YORK,
Respondent,
-against-

ORDER
DENYING
LEAVE

KYLE A. BOX,
Appellant.

Appellant having applied for leave to appeal to this Court pursuant to Criminal Procedure
Law § 460.20 from an order in the above-captioned case;*
UPON the papers filed and due deliberation, it is
ORDERED that the application is denied.

Dated:

10,0-0
at Albany, New York

Associate Judge
*Description of Order: Order of the Appellate Division, Fourth Department, entered March 13,
2020, modifying a judgment of the County Court, Jefferson County, rendered March 3,2017, and
as so modified, affirming the judgment.

RECEIVED
OCT - 8 2020

(\vleoMC

*
%»

SUPRE ME1 COURT OF THE STATE OF NEW YORK
Appellate Division, Fourth Judicial Department
1198
KA 17-01328
PRESENT: CENTRA, J.P., CARNI, LINDLEY, CURRAN, AND TROUTMAN, JJ.
THE PEOPLE OF THE STATE OF NEW YORK, RESPONDENT,
V

MEMORANDUM AND ORDER

KYLE A. BOX, DEFENDANT-APPELLANT.
DANIELLE C. WILD, ROCHESTER, FOR DEFENDANT-APPELLANT.
KRISTYNA S. MILLS, DISTRICT ATTORNEY, WATERTOWN, FOR RESPONDENT.
Appeal from a judgment of the Jefferson County Court (Kim H.
Martusewicz, J.), rendered March 3, 2017. The judgment convicted
defendant, upon a jury verdict, of murder in the second degree,
assault in the first degree, arson in the second degree, arson in the
third degree, reckless endangerment in the first degree, tampering
with physical evidence (two counts), grand larceny in the fourth
degree, criminal possession of stolen property in the fourth degree
and criminal possession of a weapon in the fourth degree.
It is hereby ORDERED that the judgment so appealed from is
unanimously modified on the law and the facts by reversing those parts
convicting defendant of arson in the third degree, reckless
endangerment in the first degree, grand larceny in the fourth degree,
and criminal possession of stolen property in the fourth degree and .
dismissing counts four, five, eight, and nine of the indictment, and
as modified the judgment is affirmed.
Memorandum: Defendant appeals from a judgment convicting him
upon a jury verdict of, inter alia, murder in the second degree (Penal
Law § 125.25 [1]), assault in the first degree (§ 120.10 [1]), arson
in the second degree (§ 150.15), arson in the third degree (§ 150.10
[1]), reckless endangerment in the first degree (§ 120.25), grand
larceny in the fourth degree (§ 155.30 [8]), criminal possession of
stolen property in the fourth degree (§ 165.45 [5]), and two counts of
tampering with physical evidence (§ 215.40 [2]). Defendant's
conviction stems from his conduct in stabbing the victim 46 times in
the victim's home, setting fire to the house, and then stealing the
victim's vehicle. Defendant gave a statement to the police admitting
that he stabbed the victim, but claimed he did so in self-defense.
Defendant also pursued an extreme emotional disturbance (EED)
affirmative defense during the trial.
We reject defendant's contention that County Court erred in
refusing to suppress his statements to the police. Prior to the

wV-

-3-

1198
KA 17-01328

"A person is guilty of arson in
the second degree when he [or she] intentionally damages a building .
. . by starting a fire, and when (a) another person who is not a
participant in the crime is present in such building ... at the
time, and (b) the defendant knows that fact or the circumstances are
such as to render the presence of such a person therein a reasonable
possibility" (Penal Law § 150.15). "[T]he definition of person
contemplates a living human being," and thus section 150.15 requires
that such a person be alive when the fire is started (People v Taylor,
158 AD3d 1095, 1103 [4th Dept 2018], Iv denied 32 NY3d 941 [2018],
reconsideration denied 32 NY3d 1178 [2019]). Here, the medical
examiner testified that the autopsy showed that the victim was still
alive when the fire was started and, contrary to defendant's
contention, the jury could infer from the evidence that defendant was
aware that such was a reasonable possibility.
generally Bleakley, 69 NY2d at 495).

We agree with defendant, however, that the verdict finding him
guilty of reckless endangerment in the first degree is against the
weight of the evidence. "A person is guilty of reckless endangerment
in the first degree when, under circumstances evincing a depraved
indifference to human life, he [or she] recklessly engages in conduct
which creates a grave risk of death to another person" (Penal Law
§ 120.25). Count five of the indictment alleged that defendant
recklessly engaged in conduct creating a grave risk of death to
emergency responders when he intentionally started the fire. We agree
with defendant that the verdict on that count is against the weight of
the evidence because the People did not prove beyond a reasonable
doubt that defendant acted with depraved indifference to human life
when he set the fire (see People v Harvin, 75 AD3d 559, 561 [2d Dept
2010]; see also People v Jean-Philippe, 101 AD3d 1582, 1583 [4th Dept
2012]; see generally People v Williams, 111 AD3d 1435, 1435-1436 [4th
Dept 2013], affd 24 NY3d 1129 [2015]; People v Feingold, 1 NY3d 288,
296 [2006]) . Inasmuch as defendant is challenging only the weight of
the evidence with respect to that count and does not challenge the
legal sufficiency of the evidence with respect to that count, we
cannot reduce the conviction to the lesser included offense of
reckless endangerment in the second degree (see People v Cooney
[appeal No. 2], 137 AD3d 1665, 1668-1669 [4th Dept 2016], appeal
dismissed 28 NY3d 957 [2016]). We therefore modify the judgment by
reversing that part convicting defendant of reckless endangerment in
the first degree and dismissing count five of the indictment.
We further agree with defendant that the verdict finding him
guilty of grand larceny in the fourth degree and criminal possession
of stolen property in the fourth degree is against the weight of the
evidence. With respect to each of those counts, the People were
required to establish that the value of the stolen motor vehicle
exceeded $100 (see Penal Law §§ 155.30 [8]; 165.45 [5]). It is well
settled that a witness "must provide a basis of knowledge for his [or
her] statement of value before it can be accepted as legally
sufficient evidence of such value" (People v Lopez, 79 NY2d 402, 404
[1992]; see People v Guarnieri, 122 AD3d 1078, 1079 [3d Dept 2014]) .
"Conclusory statements and rough estimates of value are not

•»

-5-

1198
KA 17-01328

Finally, we note that the certificate of conviction incorrectly
reflects that defendant was convicted of two counts of tampering with
physical evidence pursuant to Penal Law § 215.50 (2), and it must
therefore be amended to reflect that he was convicted of two counts of
tampering with physical evidence pursuant to section 215.40 (2) (see
People v Cruz-Rivera, 174 AD3d 1512, 1514 [4th Dept 2019]).

Entered:

March 13, 2020

Mark W. Bennett
Clerk of the Court

